WAIVER

SUPREME COURT OF THE UNITED STATES

No. 21-69

 

 

John Allison Huckabay

 

 

(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Tam filing this waiver on behalf of all respondents.

oO I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

© Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO Tam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,

Attn: "fs Street, NE, Washington, D.C. 20543).

Signature:

Date: 7/22/21

   

(Type or print) Name Kale D. Gans

 

© mr. © Ms. O mrs. O Miss
Firm Office of Idaho Attorney General
Address P.O. Box 83720 - - |

Zip 83720

 

City & State Boise, ID

 

 

Phone 208-334-2400 Email kale.gans@ag.idaho.gov

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

 

Gene Clayton Schaerr |
‘Schaerr | Jaffe

1717 K Street NW, Suite 900

Washington, DC 20006

 
